COCKLE
2311 Douglas Street

E-Mail Address:
Omaha, Nebraska 68102-1214 WAL ega 1 B tiefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No

BERNARD MORELLO, et al.,
Petitioners,
v.
SEAWAY CRUDE PIPELINE COMPANY, LLC,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 8863 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 1 Ith day of May, 2020.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

 

fe nree| Kone Qutheas Odean hl, Oboe

Notary Public Affiant
